TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Administration of the Public
                    Transportation Subsidy Program Can Be
                                   Improved



                                            March 2006

                              Reference Number: 2006-10-062




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    March 23, 2006


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Administration of the Public Transportation
                                Subsidy Program Can Be Improved (Audit # 200510023)

 This report presents the results of our review of the public transportation subsidy program. The
 overall objective of this review was to determine whether the Internal Revenue Service’s (IRS)
 public transportation subsidy program is properly monitored and efficiently administered. This
 audit was conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year (FY) 2005 Annual Audit Plan.

 Synopsis
 The public transportation subsidy program was first implemented in selected cities by the IRS in
 FY 1994. In FY 2000, transportation subsidies were made available to all IRS employees to
 reduce traffic congestion, improve air quality, and conserve energy by reducing the number of
 vehicles on the road. The transportation subsidy program is quite popular with employees, and
 close to 29,000 employees participate in the program at a cost of $20 million a year. The IRS
 has contracted with the Department of Transportation (DOT) to administer the IRS’
 transportation subsidy program.
 In general, the IRS complies with the law1 and has established procedures to administer the
 transportation subsidy program. However, the law and Executive Order2 that established the
 program did not offer guidance on how to monitor employees’ use of the subsidy. Unlike other
 kinds of reimbursable travel, daily commutes on subways and buses do not provide travelers
 with documents that can be easily verified or monitored. After an employee has been approved


 1
     5 U.S.C. § 7905 (2005).
 2
     Executive Order 13150, dated April 21, 2000.
               The Administration of the Public Transportation Subsidy Program
                                       Can Be Improved



to participate in the program, the IRS generally relies on the employee’s honesty that the subsidy
is used for his or her commute to and from work. We did not identify significant abuses of the
subsidy during our review. In 2 percent of the cases we reviewed, employees should not have
received the full subsidy benefit, should have adjusted the subsidy amounts they received, or
should have returned the fare media they received. In addition, the amounts the employees
claimed as monthly expenses appeared to be reasonable in all of the cases we reviewed.
However, 11 percent of the employees in our sample had left the IRS but were still included on
the DOT database of employees eligible to receive the subsidy. None of these employees had
received the subsidy, but this is a weakness that could be used to submit fraudulent claims.
Travel Services Branch staff informed us they forward listings of separated employees to the
DOT, but the names are not removed timely. In addition, in FY 2004 the IRS stopped enforcing
the requirement for employees to report actual commuting expenses incurred. Furthermore, the
IRS does not require annual recertification by the employee or manager, nor does it verify that its
employees collected the subsidy before paying the quarterly invoices to the DOT. Such
procedures would strengthen the controls over the use of the subsidy and provide the IRS with
better assurance that its resources are used appropriately.

Recommendations
We recommended the Chief, Agency-Wide Shared Services, direct the Travel Services Branch to
reinstitute the requirement that employees list their actual commuting costs for the preceding
distribution period when picking up their transit subsidies. Also, the Chief, Agency-Wide
Shared Services, should direct the Travel Services Branch to implement an annual recertification
process for all employees participating in the transportation subsidy program and establish better
procedures to ensure separated employees are removed from the DOT database of enrolled
participants. To help ensure transportation subsidies included on DOT invoices are accurate, the
Chief, Agency-Wide Shared Services, should direct the Travel Services Branch to periodically
send confirmation letters to a valid statistical sample of employees listed on DOT invoices.

Response
IRS management agreed with all of our recommendations and proposed corrective actions to
address the issues identified in the report. These proposed actions include requiring employees
to certify their actual commuting costs when picking up their transit subsidies, implementing an
annual recertification process, verifying that separated employees are removed from the DOT
database, and evaluating a statistical sample of employees listed on DOT invoices.
Management’s complete response to the draft report is included as Appendix IV.




                                                                                                   2
              The Administration of the Public Transportation Subsidy Program
                                      Can Be Improved



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                              3
                    The Administration of the Public Transportation Subsidy Program
                                            Can Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improvements Are Needed to Validate Transportation Subsidy
          Data and Costs ..............................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 8

                    Recommendations 3 and 4: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
                  The Administration of the Public Transportation Subsidy Program
                                          Can Be Improved




                                             Background

To help reduce traffic congestion, improve air quality, and conserve energy, Congress enacted
legislation in Fiscal Year (FY) 1993 that authorized selected Federal Government agencies to
elect to pay all or a portion of employees’ public transportation costs.1 The subsidy program was
expanded by an Executive Order in FY 2000 that required all Federal Government agencies to
implement a transportation subsidy program.2 To be eligible to receive the transportation
subsidy, employees must use public transportation to commute to and from their offices. The
subsidy benefit is equal to the employee’s actual monthly commuting cost up to $105 per month
($1,260 annually) regardless of the number of days that public transportation is used. Federal
Government agencies spend over $400 million a year to provide transportation subsidies to their
employees.
In FY 1994, the Internal Revenue Service (IRS) implemented its public transportation subsidy
program in selected cities and expanded the program in FY 2000 after the Executive Order was
issued. The IRS spends approximately $20 million a year on its transportation subsidy program.
A total of 28,753 IRS employees in 80 different cities are listed on the Department of
Transportation’s (DOT) database as enrolled participants.3 Table 1 lists the cities with the most
IRS employees listed on the DOT database as participating in the subsidy program.




1
  5 U.S.C. § 7905 (2005).
2
  Executive Order 13150, dated April 21, 2000.
3
  We did not validate the number of participants. However, our statistical sample identified 16 of 150 employees
(11 percent) who had left the IRS but were still listed on the DOT database. When applied to the entire population,
the DOT database would be overstated by about 3,163 employees, for a total of about 25,590 active participants.
                                                                                                            Page 1
                 The Administration of the Public Transportation Subsidy Program
                                         Can Be Improved



                    Table 1: Reported IRS Employees Participating in the
                      Public Transportation Subsidy Program (by City)
                                                                               Percentage of Total
             City                                  Number of Employees
                                                                                  Participants
             Washington, DC                                  4,707                      16.4
             Philadelphia, PA                                3,790                      13.2
             New York City, NY                               2,467                       8.6
             Atlanta, GA                                     2,342                       8.1
             Dallas, TX                                      1,563                       5.4
             Chicago, IL                                     1,151                       4.0
             Oakland, CA                                     1,013                       3.5
             Seattle, WA                                       947                       3.3
             St. Louis, MO                                     810                       2.8
             Cincinnati, OH                                    795                       2.8
             All Others                                      9,168                      31.9
                              Total                         28,753                     100.0
             Source: DOT database.

The most common forms of public transportation are buses, subways, commuter trains, and
qualifying van pools. The Travel Services Branch within the IRS Agency-Wide Shared Services
(AWSS) Office is responsible for the policies and administration of this program.4 The IRS,
along with over 100 other Federal Government agencies, contracts with the DOT to help
administer its transportation subsidy program. The DOT is paid a management fee of
4.95 percent of the total subsidy amount disbursed per year. The DOT is also reimbursed for
distribution expenses associated with the transit passes and vouchers. Expenses and subsidies
distributed for the past 2 years are shown in Table 2.
                        Table 2: Annual Cost of Public Transportation
                                     Subsidy Program
                     Types of Expense                     FY 2004                   FY 2005
             Fare Media – Vouchers, Passes, etc.        $17,814,128               $17,831,328
             Management Fee to the DOT                    $896,835                   $944,492
             Distribution Labor Costs to the DOT          $253,618                   $228,597
             Vendor Surcharges, Shipping, and
             DOT Travel Costs                             $555,742                   $577,540
                              Total                     $19,520,323               $19,581,957
             Source: DOT database.



4
 The IRS policies and procedures for the public transportation subsidy program are contained in Internal Revenue
Manual section 1.32.15.
                                                                                                          Page 2
               The Administration of the Public Transportation Subsidy Program
                                       Can Be Improved



The DOT takes care of many tasks associated with the transportation subsidy program,
including:
   •   Processing employee applications and maintaining a record of participants in the subsidy
       program.
   •   Purchasing transit passes and vouchers from local transportation authorities based on
       transportation subsidy requests submitted by IRS employees.
   •   Distributing transportation subsidies to IRS employees in large offices (over
       200 employees). IRS transportation coordinators distribute subsidies in small offices.
   •   Maintaining records of subsidy disbursements.
   •   Providing the IRS with detailed reports of subsidy disbursements and billing charges.
   •   Coordinating with local transit authorities to reduce the cost of acquiring transit passes
       and vouchers.
The Travel Services Branch is considering alternatives to administer and distribute the subsidies,
including the use of debit cards instead of vouchers or other fare media. The Travel Services
Branch believes this would eliminate the costs associated with mailing and distributing fare
media each quarter and may allow it to administer the program on its own. However, the Travel
Services Branch is still in the planning process for this alternative and must resolve significant
issues, including the legal and tax ramifications of implementing such a policy. Therefore, we
did not evaluate the alternatives to the DOT’s administration of the public transportation subsidy
program during this review.

This review of the IRS’ administration of the public transportation subsidy program was
performed in the Office of the Chief, AWSS, at the IRS National Headquarters in
Washington, D.C., during the period May through December 2005. We also visited the AWSS
Division Office in Houston, Texas. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                             Page 3
               The Administration of the Public Transportation Subsidy Program
                                       Can Be Improved




                                Results of Review

Improvements Are Needed to Validate Transportation Subsidy Data
and Costs
Unlike other types of reimbursable travel, daily commutes on subways and buses do not provide
travelers with documents that can be easily verified, such as a detailed receipt showing the date,
beginning and end points, and cost of a particular trip. The IRS’ public transportation subsidy
program relies on the honesty of the employee when requesting the transportation subsidy. The
law and Executive Order establishing the program describe who qualifies to participate and the
types of transportation expenses that will be reimbursed but did not provide guidance on how
best to establish controls over an individual’s use of the subsidy.
To begin receiving the transportation subsidy, employees must use public transportation to
commute to and from their offices. The employee estimates monthly commuting expenses on
the Public Transportation Subsidy Program Application (Form 11664-A), which the employee’s
manager signs for approval. This process is completed only one time, when the employee joins
the program. Employees will then begin to receive some type of fare media, usually a voucher
or pass depending on where they live. Vouchers are presented to participating transit authorities
and exchanged for tokens, tickets, or fare cards. The passes are usually good for a week, month,
quarter, or year and allow unlimited use during that period.

The risk of distributing improper subsidies can be reduced
To evaluate whether employees were entitled to their requested subsidies, we reviewed a
statistically valid sample of 150 employees randomly selected from the total population of
28,753 IRS employees listed on the DOT database of enrolled employees. The 150 employees
selected lived in 35 different cities around the country and generally matched the overall
distribution of the entire subsidy population. The sample distribution is shown in Table 3.




                                                                                            Page 4
               The Administration of the Public Transportation Subsidy Program
                                       Can Be Improved



                                  Table 3: Distribution of Sample

                    Top Five Cities             Number of Employees   Percentage
           Washington, DC                                  25            16.7
           Philadelphia, PA                                19            12.7
           New York City, NY                               16            10.7
           Atlanta, GA                                     11             7.3
           Dallas, TX                                      11             7.3
           All Others                                      68            45.3
                          Total                           150           100.0
           Source: Statistical sample results of the DOT database.

Our review identified 16 of the 150 sampled employees (11 percent) who no longer worked for
the IRS but were still listed on the DOT database of enrolled employees. None of the employees
in our sample received a subsidy after separation from the IRS, but an inaccurate database
increases the risk that fraudulent claims for transportation subsidies can be filed. We estimate
that, when projected to the population, there are approximately 3,163 employees on the DOT
database who have separated from the IRS. In about July 2004, the Travel Services Branch
began providing the DOT a monthly (or as needed) list of employees that have left the IRS and
therefore should be removed from its database. However, 3 of the 16 separated employees in our
sample left the IRS after this procedure was established. The Travel Services Branch has not
developed a follow-up process to ensure the DOT removed the employees as requested. The
Travel Services Branch should periodically review the DOT database to ensure the employees
have been removed.
Employees are entitled only to subsidies for the commuting expenses they actually incurred. If
employees have unused fares because they did not commute as much as originally estimated,
they are required to carry that over into the next period and reduce the amount advanced for the
next distribution period. To evaluate whether employees reduced subsidy claims, we reviewed
employee time reports and travel vouchers to determine if employees had any extended leave or
were reimbursed for travel expenses and should have adjusted their commuting expenses. From
our sample of 150 employees, we identified 3 employees who should not have received the
subsidy, who should have adjusted their subsidy amounts, or who should have returned the fare
media they received.
   •   One employee regularly filed travel vouchers requesting and receiving approximately
       $400 per month reimbursement for using his or her private vehicle to travel to and from
       taxpayer homes or offices. This employee was also receiving a transit pass for $100 a
       month and did not appear to have used public transportation.
   •   Another employee was on annual leave for a period of 6 weeks and received a monthly
       pass during this time.

                                                                                          Page 5
                   The Administration of the Public Transportation Subsidy Program
                                           Can Be Improved



      •    A third employee received a quarterly transit pass just 7 days before he or she resigned
           from the IRS and did not return it when he or she left.
Based on our sample, we estimate that approximately 575 IRS employees who received the
transportation subsidy during the past year did not reduce, return, or decline the subsidies as
required. Specific details about the sampling plan and our estimate are contained in Appendix I.
To evaluate whether employees’ commuting expenses corresponded with the subsidies received,
we estimated daily commuting expenses for 70 of the 150 employees in our sample by reviewing
the transit authority trip planners or fare schedules. We compared the estimated quarterly
amounts with the actual distribution records for FY 2005 and determined that the employees’
claims were consistent with the estimated fare amounts for all 70 employees.
In addition to the examples we identified from our sample, the Treasury Inspector General for
Tax Administration Office of Investigations has investigated 72 allegations involving potential
employee abuse of the transportation subsidy program within the past 3 years. In 21 of the
72 cases (29 percent), the allegations of abuse were substantiated. The most commonly reported
type of abuse involved employees receiving transportation subsidies and driving personal
vehicles to work. The cases were discovered when coworkers informed their managers or the
Office of Investigations that employees were receiving the subsidy and were not observed taking
public transportation to and from their offices. The punishments in the 21 substantiated cases
ranged from oral admonishment to suspension. Punishments varied because mitigating factors
are considered when managers propose disciplinary actions.
The Travel Services Branch recognized that there were some inaccuracies in the DOT database
of enrolled employees and has discussed implementing the DOT’s web-based employee
recertification system, which is under development. The Travel Services Branch and the DOT
believe an annual certification process will improve the accuracy of the DOT database. The
planned recertification process includes updating the following information:
      •    Employee name.
      •    Business unit.
      •    Mode of public transportation to be used by employee.
      •    Employee certification statement about amount of commuting costs.
      •    Name and email address of manager.
      •    Approval of manager.
The 2004 Internal Revenue Manual5 does not require the manager’s involvement in the program
after he or she has approved an employee’s initial application to join the program. While it is
impractical for managers to monitor employees’ daily commutes, the managers’ approval during


5
    Internal Revenue Manual 1.32.15, Public Transportation Subsidy Program.
                                                                                               Page 6
                    The Administration of the Public Transportation Subsidy Program
                                            Can Be Improved



the recertification process would be beneficial. The manager would be more likely to remember
employees’ claims for reimbursement of local commuting expenses, requests for extended leave,
or temporary duty away from the commuting area and could remind employees to adjust their
claims for the subsidy accordingly. In addition, had an annual recertification program been in
place, the employees who had left the IRS would likely have been identified and removed from
the DOT database.
The DOT needs to upgrade its hardware and software before any electronic recertifications can
be conducted. However, the DOT has not yet provided an estimated time for full
implementation. In the interim, we believe it would be beneficial for the Travel Services Branch
to perform its own manual recertification and manager approval process.

Employees should certify actual commuting expenses
The 2004 Internal Revenue Manual covering the transportation subsidy program requires
employees to certify two things when picking up their next quarter’s distribution. Employees are
to certify:
      •    Actual commuting expenses for the preceding distribution period.
      •    Estimated commuting cost for the upcoming distribution period.
While the requirement to certify actual expenses is in the Internal Revenue Manual, it is not
enforced. The Travel Services Branch believed it was slowing down the distribution of fare
media while employees attempted to figure how much their expenses were, and neither the IRS
nor the DOT used the information.6 Participants are not entitled to benefits for the days they do
not use public transportation to commute to and from the workplaces, and benefits should be
adjusted when possible. Requiring employees to note their actual use of the subsidy would
reinforce the fact that the subsidy is intended to cover actual expenses. Such documentation
would also be useful in any investigations of potential misuse of the benefit.

The DOT invoices for transportation subsidies should be validated
The DOT provides the Travel Services Branch with detailed monthly reports of subsidy
disbursements and billing charges which contain the following information:
      •    Name of employee.
      •    Office address of employee.
      •    Amount of subsidy disbursed.
      •    Date of distribution.



6
    The Travel Services Branch stopped enforcing this requirement in FY 2004.
                                                                                            Page 7
                  The Administration of the Public Transportation Subsidy Program
                                          Can Be Improved



However, the Travel Services Branch staff do not routinely compare the DOT reports with IRS
records of current employees. They informed us they do a small comparison of the DOT detail
report to IRS records of current employees. Without a larger population comparison, the Travel
Services Branch does not have assurance that the employees listed on DOT invoices are
employees of the IRS. In addition, the Travel Services Branch does not confirm with IRS
employees that the subsidies were actually received.7 Current procedures require employees to
show identification and sign a document when picking up the subsidies. However, the Travel
Services Branch does not follow up with employees to validate that vouchers were actually
received. The Travel Services Branch could reduce the risk of abuse by independently verifying
that its employees actually received the subsidy. This could be accomplished by periodically
contacting a sample group of employees directly. For example, the Travel Services Branch
could email a sample group of employees, with simple yes/no responses required, and follow up
with any discrepancies between the responses and the DOT invoices.

Recommendations
Recommendation 1: The Chief, AWSS, should direct the Travel Services Branch to
follow up on DOT actions to timely remove employees that have separated from the IRS from
the DOT database.
        Management’s Response: Existing procedures require the DOT to remove separated
        employees from its database within 30 days of notification by the IRS. Follow-up
        procedures are in place that will allow the AWSS Office to query the DOT database
        monthly to confirm whether separated employees have been removed from the database.
Recommendation 2: The Chief, AWSS, should direct the Travel Services Branch to
implement an annual recertification process, including managerial approval, for all employees
participating in the transportation subsidy program. Information from the recertification should
be provided to the DOT to ensure the database of IRS employees participating in the subsidy
program is kept up to date.
        Management’s Response: Procedures are being finalized for an annual
        recertification process. The Travel Services Branch will use an existing IRS web-based
        system linking employees with managers. Employees will annually receive an email
        with a link to an electronic recertification form which, upon completion, will be
        transmitted to their managers for review and approval (or disapproval). Reports of
        recertified and noncertified employees will be cross-checked with the DOT database to
        ensure all current subsidy program participants are recertified. The Travel Services
        Branch will provide the DOT with a listing of noncertified employees for removal from


7
 A routine part of contract administration includes reviewing invoices to ensure compliance with the terms of the
contract.
                                                                                                            Page 8
               The Administration of the Public Transportation Subsidy Program
                                       Can Be Improved



       the database, and follow-up procedures will be implemented to ensure timely removal of
       noncertified employees.
Recommendation 3: The Chief, AWSS, should direct the Travel Services Branch to
reinstitute the requirement that employees certify their actual commuting costs for the preceding
distribution period when picking up their transit subsidies.
       Management’s Response: The Travel Services Branch has revised the signature
       sheet that participants complete when receiving their transit subsidies to include a column
       indicating the dollar amount expended during the preceding distribution period. The
       DOT will begin using the revised form on April 1, 2006.
Recommendation 4: To help ensure transportation subsidies included on DOT invoices are
accurate, the Chief, AWSS, should direct the Travel Services Branch to match the DOT invoices
with the IRS’ database of employees to ensure the invoices are limited to employees of the IRS.
In addition, the Travel Services Branch should periodically contact a valid statistical sample of
employees listed on DOT invoices to confirm that subsidies were actually received.
       Management’s Response: The Travel Services Branch has established a monthly
       procedure, with the Human Resources Systems office, to cross-check names on the
       DOT’s invoices to verify that invoices contain only active IRS employees. A statistically
       valid sample of employees will be evaluated each month, and each employee’s subsidy
       usage will be verified. The monthly sample evaluation of employees will also include a
       review of travel vouchers and time and attendance records to identify any potential
       subsidy abuses. The first sample of employees will be selected in June 2006.




                                                                                           Page 9
              The Administration of the Public Transportation Subsidy Program
                                      Can Be Improved



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service’s
(IRS) public transportation subsidy program is properly monitored and efficiently administered.
To accomplish this objective, we:
I.     Determined whether the IRS has established policies and procedures necessary to ensure
       that only qualified employees receive the subsidy and that they receive the correct
       amount.
       A. Determined which office in the IRS has specific responsibility for administering and
          monitoring the subsidy program.
       B. Verified whether appropriate subsidy program procedures have been established in
          the IRS.
       C. Determined whether the IRS has considered other methods (such as the debit card
          concept) to administer the subsidy program and evaluated their potential benefits and
          weaknesses.
       D. Determined how the IRS Fare Media Distributors ensure only qualified employees
          are given the subsidy.
       E. Verified whether the IRS is provided appropriate administrative reports from the
          Department of Transportation (DOT) that enable the IRS to ensure only qualified
          employees receive the subsidy.
II.    Determined whether IRS employees are complying with established procedures and are
       claiming the correct subsidy amount.
       A. Identified monitoring controls and procedures that have been established for the
          subsidy program.
       B. Selected and reviewed a statistically valid random sample of 150 employees (from the
          June 2005 list of 28,753 participants) who have received the subsidy. We used the
          following sampling plan when selecting the sample:
              Population:                           28,753.
              Confidence level of sample:           95 percent.
              Expected rate of occurrence:          5 percent.
              Precision level of sample:            +/- 4 percent.
              Sample size:                          150.

                                                                                        Page 10
              The Administration of the Public Transportation Subsidy Program
                                      Can Be Improved



              Sample selection technique:           random.
              Type of sample:                       attribute.
          We did not validate the database (that the list of 28,753 participants came from), its
          structure, or its contents because it and the supporting documents associated with it
          are maintained by the DOT and not the IRS.
          Sample Results:
          1) Sixteen cases (out of 150 sampled) where employees had separated from the IRS
             equals 11 percent error rate.
              •   28,753 participants on the DOT database times 11 percent equals 3,163.
              •   28,753 participants on the DOT database minus 3,163 equals 25,590 actual
                  participants.
          2) Three cases with potential issues divided by 150 equals 2 percent error rate.
              •   28,753 participants times 2 percent equals 575.
       C. Reviewed reports from the Treasury Inspector General for Tax Administration Office
          of Investigations to identify the number of cases and to evaluate the consistency of
          disciplinary actions handed down to employees who have violated IRS policies and
          procedures related to the transportation subsidy program.
III.   Contacted the DOT to learn how it acquires and distributes transportation subsidy
       benefits and other program details.
       A. Determined how the DOT distributes transit passes to IRS employees in large offices.
       B. Determined how the DOT purchases transit passes in the most economical manner
          (i.e., annual transit passes, if cheaper).
       C. Determined whether the DOT receives discounts from transit authorities when
          available.
       D. Confirmed that the DOT does not disburse cash for transportation subsidies.
       E. Confirmed whether the DOT provides the IRS with the appropriate administrative
          support for billing purposes. We also determined the total annual cost of the
          program.




                                                                                           Page 11
              The Administration of the Public Transportation Subsidy Program
                                      Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Acting Director
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
Frank I. Maletta, Auditor
William E. Thompson, Auditor




                                                                                      Page 12
              The Administration of the Public Transportation Subsidy Program
                                      Can Be Improved



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Employee Support Services OS:A:EES
Associate Director, Travel Services OS:A:ESS:TS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Agency-Wide Shared Services OS:A:F




                                                                       Page 13
   The Administration of the Public Transportation Subsidy Program
                           Can Be Improved



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 14
The Administration of the Public Transportation Subsidy Program
                        Can Be Improved




                                                         Page 15
The Administration of the Public Transportation Subsidy Program
                        Can Be Improved




                                                         Page 16
The Administration of the Public Transportation Subsidy Program
                        Can Be Improved




                                                         Page 17
The Administration of the Public Transportation Subsidy Program
                        Can Be Improved




                                                         Page 18
The Administration of the Public Transportation Subsidy Program
                        Can Be Improved




                                                         Page 19
